C@OCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-123

Legal Briefs

Est. 1923

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

SHARONELL FULTON, ET AL.., Petitioners,

v.
CITY OF PHILADELPHIA, ET AL., Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 2nd day of June, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF THE BRUDERHOF, UNITED SIKHS, THE
INTERNATIONAL SOCIETY FOR KRISHNA CONSCIOUSNESS (ISKCON), THE ISLAM & RELIGIOUS FREEDOM
ACTION TEAM OF THE RELIGIOUS FREEDOM INSTITUTE, AND ASMA UDDIN AS AMICI CURIAE IN SUPPORT
OF PETITIONERS in the above entitled case. All parties required to be served have been served by third-party commercial
carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
CHRISTOPHER C. LUND
Counsel of Record
471 W. Palmer St.
Detroit, MI 48202
(313) 577-4046
lund@wayne.edu

Subscribed and sworn to before me this 2nd day of June, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Qudeaw-h, Chk

 

f GENERAL BOTARY-State of Nebraska |
RENEE J. QO8S Q.
My Comm. Exp. September 5, 2023

Notary Public (7

   

Affiant

S98 TE
 

Attorneys for Petitioners

Mark Leonard Rienzi The Becket Fund for Religious Liberty (202) 955-0095
Counsel of Record 1200 New Hampshire Ave., NW
Suite 700

Washington, DC 20036

mrienzi@becketlaw.org

Party name: Sharonell Fulton, et al.

 

Attorneys for Respondents

Leslie Cooper American Civil Liberties Union (212) 519-7815
Counsel of Record 125 Broad Street
New York, NY 10004

Icooper@aclu.org
Party name: Intervenor Support Center for Child Advocates and Philadelphia Family Pride

Neal Kumar Katyal Hogan Lovells US LLP (202) 637-5528
Counsel of Record 555 Thirteenth St., N.W.
Washington, DC 20004

neal.katyal@hoganlovells.com

Party name: City of Philadelphia, Department of Human Services for the City of Philadelphia,
Philadelphia Commission on Human Relations

 

 

 
